sIK
No.

%1 °
filed
SEP 2 1 2021
IN THE

SUPREMEFCOlfR^Lnlc;K

SUPREME COURT OF THE UNITED STATES

CHARLES EASON

— PETITIONER

(Your Name)
vs.

UNITED STATES OF AMERICA

— RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS SIXTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

CHARLES EASON
(Your Name)

#30343-076 FCI MEMPHIS,P.0. BOX 34550
(Address)

MEMPHIS,TN 38184-0550
(City, State, Zip Code)

N/A
(Phone Number)

Charles Eason Pro-Se
Counsel For Petitioner
#30343-076 FCI Memphis
P.0. BOX 34550
Memphis,TN 38184-0550

QUESTION(S) PRESENTED

I.
When the Appellate Court Interprets"Promotion" Of
A Chimical that "Could" be used to Manufacture as
a "Serious Drug" is Remand Required ?

II.
If a defendant's prior conviction was part of
One Continuance Crime Spree "Without" InterveningArrest and further "Consolidated" for one sentencing
purpose,can a court construe the prior as Seperateconvictions based soley on the dates:.the offenses and
prior to any arrest being made or entry of a conviction
to deem the defendant an Armed Career Criminal If Not
is Remand for Resentencing required?
III.
If a State Statute is "Overlybroad,overlyinclusive','or
indivisble" is it Unconstitutional to apply an enhancement
pursuant to the ACCA 18 U.S.C. §924(e)?

i

LIST OF PARTIES

tM All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

i /

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE.....................
4-6

REASONS FOR GRANTING THE WRIT
7-12

CONCLUSION
13

INDEX TO APPENDICES
APPENDIX A

OPINION OF THE SIXTH CIRCUIT COURT OF APPEALS

APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

iii

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

ERNST V. UNITED STATES 293 F. SUPP 3d 1242,1250 (D. OR 2017)..
. .9
UNITED STATES V. EASON, 919 F. 3d 385,389-92 (2019).........
9
UNITED STATES V. NICHOLS, 979 F.2d 402, 413-14 (6th CIR.
1992).10
MATHIS V. UNITED STATES, U.S. 136 S.CT. 2243
12
BEGAY V. UNITED STATES, 553 U.S. 137 (2008)
8
TAYLOR V. UNITED STATES, 495 U.S. 575 (1990)..
12
MOSKAL V. UNITED STATES, 498 U.S. 103 (1990)..
.8
LIPAROTA V. UNITED STATES, 471 U.S. 419,427 (1985).
8,9
UNITED;STATES V. BASS, 404 U.S. 336,348 (1997)__ _
12
MCBOTLE V. UNITED STATES, 283 U.S. 25, 51, S.CT.
340 (193)......... 12
U.S. V. CARDIFF, 344 US 174 73 S.CT. 119 (1952).
........................ 8,12

STATUTES AND RULES
18 U.S.C. §924(e)(2)(B)(A)(ii)

5-15

18 U.S.C. §922 (g)(1).............

.5

18 U.S.C. §1254 (1 )............ ............

2

USSG § 4B1.4 (b)(3)(B).___....

11

RULE 12..............
; xi

TENN CODE ANN. § 39-17-433

4,5,7,10,11,12

OTHER

iv

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is
[/.] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix —___to
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix--------to the petition and is
[ ] reported at
; or,
[ 3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
[ ] reported at____
; or,
[ ] has been designated for publication but is not yet reported;; or,
[ ] is unpublished.
1.

to

JURISDICTION
[XI For cases from federal courts:
The date on which the United States Court of Appeals decided mv case
was September 17,2020
[ 3 No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including
(date) on
(date)
in Application No. ___ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ J For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ 3 A timely petition for rehearing was thereafter denied on the following date:
:—-—:-------------------------, and a copy of the order denying rehearing
appears at Appendix
[ 3 An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.___A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

1

%

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Fifth Amendment to the United States Constitution states;
No person shall be held to answer for a capital, or
other wise infamous crime,unless on a presentmentof Indictment of a grandjury, except in cases arising
in the land or Naval Forces, or in the Militia, when
in actual service in time of war or public danger,nor
shall, any person be subject for the same offense to
be twice put in jeopardy of life or limb; nor shall
be compelled in any criminal case to be a witness against himself,nor be deprived of liberty,or property
without due process of law, nor shall private property
be taken for public use without just compensation.

3

STATEMENT OF THE CASE
Petitioner, Charles Eason, had appealed to the Sixth Circuit
Court of Appeals after the district Court PESEMTEMC.hi him '
TO THE ACCA 180 MO.

arguing that his counsel abandoned him

during the critical stages of the proceedings including the
appeal on petition for Writ of Certiorari before this court.
the district court denied an evidentuary hearing .
Mr. Eason had previously appealed his 180 month Armed
Career
Career Criminal sentence

IMposed by the court after being re­

sentenced from THATof 46 months tothat of 180 months based on
the district court's use of the word"Promotion" of a chimical
that "Could" had been used to manufacture, without a Nixis to
define this interpretatio n as a "Serious Drug" under the ACCA.
Furthermore, the district court also used piror convictions under
Tenn Code Ann. §39-17-433 staute that is vague and indivisible,
and part of one contiunance crime spree witout an interveining
arrest and consolidated for qne sentence purpose based soly on the
dates of each offense was committed prior to an arrest being made
or conviction was entered as seperate crimes.
The Tennesse Code Ann. §39-17-433 Eason argued is overlybroad, overinclusive,indivisible and carries a greater swath of punishment than
the laws allow.
After being resentenced and filing his APPEAL....

the Sixth Circuit

denied Eason's appeal in its entirety on September 17,2020
"Continued"

The background of events
On January 6,2017 a police officer initiated a traffic stop
within the city of Memhis, Tennessee ,because.; Eason was the alleged
driver a firearm found inside the vehicle during a search was the
result of Eason being convicted for constructive possession of a
firearm by a convicted felon.

On July 27,2017 a federal grand jury returend a one count
1 indictment charging Eason with unlawful posession of a firearm in
-violation of 181 U.S.C. §922(g)(l).-

Mr.Eason pled guilty to the

offense as charged.
The U.S. Probation had prepared a Presentence Report(PSR) in
anticipation of sentencing. Both Eason and the United States Attorney
had agreed that Eason's sentencing guideline range was that of 37-46
months imprisonment,

However the PSR advised the court that Easn was

to be deemed an Armed Career Criminal under 18 U.S.C-§924(e) subjecting
Eason to a Mandatory Minimum of 180 months in prison,

Here the PSR's

sole rational in finding Eason to be an armed career criminal was that
Eason had been previously convicted in 2010 to five counts of a drug
offense under Tenn.Code Ann. §39-17-433 relating to a "promotion" of
of a chimical that "could" be used to make metamphetamine;
In the Tennessee overview of Eason's priors , Eason had plead guuilty
to Purchasing anid ingredient that "could" had been used to "produce"
methamphetamine.

The PSR identified these offenses as a "Serious Drug"

offense under the Armed Career Criminal Act(ACCA) enhancement provision
triggering a mandatory minimum sentence of 15 years in prison.
Mr. Eason objected during sentencing that ;his convictions

£

were

not a Serious Drug Offense as "promotion and could" did not
fit the federal drug statute to qulify as a "Serious Drug".
Under federal law
if defined

a serious drug offense could only be counted

in relevant

part as an offense under state or

federal

law that involved "manufacturing,distributing,or possessing such
drug with intent to manufacture or distribute a controlled substance'.'
In which the mere chimical that "could"be used or to promote a drug
without more cannot be construed as a "Serious Drug"

under 18 U.S.C

§924(e)(2)(A)(ii) This is a line drawing inquiry in which both the
district court and Court of Appeals for the Sixth Circuit overreached
its own opinions to qulify and is now before this Honorable High Court
to review, as the mandatory Minimum sentence imposed is unconstitutional
and unlawful.

Eason's Tennesse conviction's could only be construed

as an Ingredient that "could" had been used.
Mr. Eason further argued during sentencing that his prior (5)
convictions was part of one continous crime spree without an intervening
arrest and part of one sentencing purpose.
During Sentencing the district couirt agreed with.Eason's arguments
and overruled the government and sentenced Eason to 46 months in prison.
The government then appealed Honorable Judge Shery H. Lipman's judgment
to the Sixth Circuit Court of Appeals No. 18-5387. The case was then
remanded back to the district court for resentencing ,to have the court
resentence eason to the Mandatory Minimum of 15 years in prison. This
petition for writ of certiorari now follows the final mandate entered
on September 17,2020

Appendix A.

io

REASONS FOR GRANTING THE PETITION

1. THE SIXTH CIRCUIT HOLDING THAT "PROMOTION" OF A SINGLE
CHEMICAL THAT "COULD" HAD BEEN USED TO MANUFACTURE IS A " SERIOUS
-DRUG" UNDER THE ACCA'S ARMED CAREER CRIMINAL ACT TITLE 18 USC '
§ 924 (e)(2)(A)(ii) IS UNCONSTITUTIONAL REQUIRING REMAND.
2. THE COU[?T OF APPEALS COURT UPHOLDING A SENTENCE ENHANCEMENT
UNDER THE ARMED CAREER CRIMINAL ACT (ACCA) BY USE OF "DATES"
OF OFFENSES DURING "ONE CONTINUOUS CRIME SPREE," PRIOR TO
ARREST AND PART OF ONE SENTENCING VIOLATES THE DUE PROCESS
CLAUSE UNDER THE UNITED STATES CONSTITUTION. REMAND IS REQUIRED.
■■

!;■

• ?

3. IF A STATE'S,STATUE DRUG LAW IS VAGUE, OVERINCLUSTVE,
OVERBROAD OR INDIVISIBLE UNDER STATE OF TENN. CODE ANN. §3917-433 IS REMAND REQUIRED IF THE STATUE WAS USED TO ENHANCE
A SENTENCE PURSUANT TO 18 USC §924(e) ACCA?
(iy THE SIXTH CIRCUIT HOLDING THAT "PROMOTION" OF A SINGLE CHEMICAL
THAT OTHERWISE "COULD" HAQ BEEN USED TO MANUFACTURE IS A "SERIOUS
DRUG" UNDER THE ACCA'S §924(e)(2)(A)(ii) IS UNCONSTITUTIONAL
REQUIRING REMAND.
ON OR ABOUT JANUARY 7, 2010 MR. EASON HAD PLED GUILTY IN A
STATE OF TENNESSEE [SHELBY COUNTY] COURT TO FIVE COUNTS
RELATING TO THE POSSESSION OF A SINGLE CHEMICAL THAT "COULD"
HAD BEEN USED TO "PROMOTE" MANUFACTURING OF METHAMPHETAMINE
IN VIOLATION OF TENN. CODE ANN. §39-17-433. RENDERING A
SENTENCE OF 8 YEARS DEPARTMENT OF CORRECTIONS.

7

i

EASON ARGUES THAT THE STATE CONVICTIONS UNDER FEDERAL LAW DON'T
CONSTITUTE THAT OF A SERIOUS DRUG-OFFENSE TO TRIGGER A MANDATORY
MINIMUM SENTENCE UNDER 18 USC §924(e)(2)(A)(ii) AS "PROMOTION"
AND "COULD" IS VAGUE AND LACKS CLARITY TO QUALIFY. SEE; LIPORATA
V. UNITED STATES, 471 US. 419, 427(1985); SMITH V. ROBBINSON,
120 S. ct. 746 (2016); UNITED STATES V. CADIFF, 344 U.S. 174,
73 S. ct. 119, 97 LED 200 (1952).
CONGRESS DEFINES ^SERIOUS DRUG AS;

state or federal law,

THAT

f^VOVLES THE, MANUFACTURING, DISTRIBUTING OR POSSESSION WITH
THE INTENT TO MANUFACTURE, DISTRIBUTE A CONTROLLED SUBSTANCE.
TO QUALIFY UNDER AN ENHANCEMENT UNDER 18 USC §924(e)(2)(A)(ii).
T, • •

IN REVIEWING EASON"S STATE CONVICTIONS THE RECORD IS CLEAR THAT
HE DID NOT HAVE ANY DRUGS OR ANY OTHER CHEMICALS OTHER THAN
A SINGLE INGREDIANT THAT "COULD HAD BEEN USED TO PROMOTE" A
PLAUSABLE OUTCOME OF THE MANUFACTURING PROCESS. THIS WITHOUT
MORE TO COMPLETE A PRODUCT THAT IS OTHERWISE WRITTEN IN THE
FEDERAL DRUG LAW §92f(^)(2)(A)(ii) CAN NOT BE MISPLACED BY; A
COURT TO QUALIFY AS A "SERIOUS DRUG."
THE UNITED STATES DISTRICT COURT CORRECTLY HELD DURING SENTENCING
[BEFORE THE GOVERNMENTS APPEAL] THAT "PROMOTION AND COULD"
INTERPRETATION OF AN INGREDIANT ALONE COULD NOT QUALIFY EASON
AS A ARMED CAREER CRIMINAL AND IMPOSED A SENTENCE OF 46 MONTHS
IN PRISON FOLLOWING THE U.S.SiG RANGE. LADNER V. UNITED STATES.
358 US 169, 178 (1958): BEGAY V. UNITED STATES. 553 U.S. 137
(2008); MOSKEL V. UNITED STATES. 498 U.S. 103 (1990)
the government argued against the DISTRICT COURTS OWN INTERPRE­
TATION OF

the

serious drug" apealling to the sixth circuit

COURT OF APPEALS EVENTHOUGH THE DISTRICT COURT CORRECTLY HELD

8

•
'

!

THAT A "SINGLE" CHEMICAL WITHOUT MORE FELL OUTSIDE THE AMBIT
OF THE ACCA'S "SERIOUS DRUG" UNDER FEDERAL LAW AND FURTHER DID
NOT RELATE CLOSE ENOUGH OR EVEN CONNECTED CLOSELY ENOUGH TO
THAT OF MANUFACTURE OR DISTRIBUTION AS DEFINED UNDER 18 USC
5924(e)(2)(A)(ii). [SIXTH CIR. APP. NO 18-538].
THE SIXTH CIRCUIT COURT OF APPEALS WRONGLY REMANDED EASON'S
SENTENCE OF 46 MONTHS IN PRISONMENT TO HAVE THE DISTRICT COURT
IMPOSE A SENTENCE OF 180 MONTHS IN PRISON. AS ITS OPINION FELL
OUTSIDE CONGRESS'S INTENT OF THE FEDERAL STATUE. BY HOLDING
A SINGLE CHEMICAL COULD CATEGORICALLY QUALIFYING AS A "SERIOUS
drug” offense: united states v. EASON, 919 F.3d 385. 389-92
WL 1306235 (6th CIR. 2019)/ERNST V. UNITED STATES 293 F. SUPP
3D 1242,1250 (D. OR 2017)
MR. EASON ASSERTS THAT THE SIXTH CIRCUIT'S INTERPRETATION
OF THE "SERIOUS DRUG" UNDER FEDERAL LAW IS MISPLACED AND
FURTHER
CLEAR ERROR AND ENFORCING A SENTENCE UNDER THE ACCA'S MANDATORY
MINIMUM OF 180 MONTHS IN PRISON IS A COMPLETE MISCARRIAGE OF
JUSTICE THAT ONLY THIS HIGH COURT CAN CORRECT. LIPORATA V.
UNITED STATES, 471 U.S. 419, 427 (1985); SMITH V.
ROBBINSON,
120 S.CT 746 (2016); UNITED STATE V. CADIFF. 344 U.S. 174 S.CT
U.S. 97 LED 200 (1952). REMAND FOR RESENTENCING IS REQUIRED.
2.

THE COURT OF APPEALS UPHOLDING A SENTENCE ENHANCEMENT UNDER

THE ARMED CAREER CRIMINAL ACT (ACCA) BY THE USE OF THE "DATES"
THE OFFENSES WAS COMMITTED DURING THE COURSE OF "ONE CONTINUOUS
CRIME SPREE AND PRIOR TO AN ARREST AND ONE SENTENCING PURPOSE"
VIOLATED THE DUE-PROCESS CLAUSE PROTECTED BY THE UNITED STATES
CONSTITUTION FIFTH AMENDMENT. REMAND IS REQUIRED.

9

FACTUAL BACKGROUND.
ON OCTOBER 8. 2008. MR. EASON BEGAN ONE CONTINUOUS CRIME SPREE
OF A CONTINUED ACT AND PART OF ONE COMMON SCHEME AND PURPOSE
OR MODUS OPRENDI IN VIOLATION OF THE STATE OF TENNESSEE DRUG
LAW TENN. CODE ANN. $39-17-433. FOR HAVING A SUBSTANCE CHEMICAL
THAT "COULD OF HAD BEEN USED FOR THE PROMOTION"
TO MANUFACTURE
METHAMPHETAMINE.
MR. EASON AS PART OF THE-FOREMENTIONED MODUS-APPRENDI CONTINUED

k.

HIS CRIME SPREE UNTIL APRIL 3, 2009 WITHOUT AN INTERVIEWING
-ARREST BEING MADE UNTIL JULY 9, 2009.
V ApTER ARRESTiON JULY 9. •P.2009 MR. EASON AGREED TO ENTER HIS PLEA
OF GUILTY TO THE FIVE COUNTS FILED IN SHELBY COUNTY, TENNESSEE

i

CIRCUIT COURTS RELATING TO HIS ONE CONTINUOUS CRIME SPREE AS
PART OF ONE CONSOLIDATED SENTENCE ON JANUARY 7. 2010 FOR
POSSESSING A SINGLE CHEMICAL THAT "COULD HAD BEEN USED AS A

;

PROMOTION" TO MANUFACTURE METHAMPHETAMINE. TENN. CODE ANN §3917-433. EASON WAS SENTENCED TO 8 YEARS DEPARTMENT
OF CORRECTION.
1$R. EASON ARGUES THAT EVEN THOUGH THEIR WAS "DATES" SEPARATING
THE CRIME SPREE. HIS OFFENSE WAS PART OF THE SAME CONTINUOUS
MODIS APRENDI WITHOUT AN INTERVIEWING ARREST BEING MADE UNTIL
JULY 9, 2009.
BECAUSE THE MODIS APRENDI CONTINUED WITHOUT INTERVEING ARREST
AND PART OF THE SAME SENTENCE ON ONE DAY THE "DATES" IDENTIFIED
IN THE COURSE OF COMMITTING THE CRIMES CANNOT BE SEPARATED BY
THE GOVERNMENT TO COUNT AS 5 SEPARATE CONVICTIONS TO TRIGGER
A MANDATORY MINIMUM SENTENCE UNDER THE ARMED CAREER CRIMINAL
ACT (ACCA). SEE UNITED STATES V. NICHOLS, 979 F.2d 402 413-14
(6TH CIR. 1992); 511 U.S. 738, 128 LED 2d 745, 114 S.ct, 1921
(1994).

10

MR. EASON ARGUES THAT HIS PRIOR FIVE
COUNT CONVICTIONS IN THE
STATE OF TENNESSEE SHELBY COUNTY COURTS IMPOSED ONE THE SAME
DAY [JANUARY 7. 20101 CAN ONLY BE COUNTED AS
DIFFERENT
CONVICTIONS IF HIS OFFENSE WAS SEPARATED by an Intervening arrest
i.e. ARRESTED FOR THE FIRST OFFENSE PRIOR
TO COMMITTING THE
SECOND OFFENSE. OTHERWISE. PRIOR SENTENCES ARE CONSIDERED RELATED
IF THEY RESULTED FROM OFFENSES THAT HAD OCCURRED ON THE SAME
OCCASION. PART OF A SINGLE COMMON SCHEME
OR PLAN WITHOUT
INTERVENING ARREST AND HAD BEEN CONSOLIDATED FOR ONE SENTENCING
PURPOSE.
THE CIRCUIT COURT OF APPEALS FOR THE SIXTH CIRCUIT HEPE HAD
OVERREACHED A "GRIEVOUS AMBIGUITY" BY HOLDING ITS OPINION BY
THE USE OF "DATES" TO SEPARATE THE OFFENSES THAT ARE OTHERWISE
PART OF ONE CONTINUOUS CRIME SPREE WITHOUT INTERVENING ARREST
AND PART OF ONE CONSOLIDATED SENTENCING PURPOSE OVERREACHED
AND MISLEADING AS WELL AS UNCONSTITUTIONALLY INTERPRETED OF
CONGRESS INTENT. HAD WRITTEN IN USSG §4B1.4(b)(3)(B) SUPP
APPX
C's AMENDMENT (2008). SEE MUSCERELLO V.
UNITED STATES. 524 U.S.
125 138-39 118 S.ct. 1911 . 141 LED 2d 111 (1998). BECAUSE OF
THE WRONG APPLICATION AND WHAT THE SEPARATED OFFENSES WAS
INTENDED. REMAND IS REOUIRED.
3.

IF A STATE'S STATUE DRUG LAW IS VAGUE. OVERINCLUSIVE.

OVERBROAD OR INDIVISIBLE UNDER TENN. CODE ANN. S39-17-433
IS REMAND REOUIRED IF SUCH STATUE WAS USED TO ENHANCE A SENTENCE
UNCONSTITUTIONALLY PURSUANT TO 18 USC S924(e)(ACCA)?
THE UNITED STATES SUPREME COURT HAD MADE IT CLEAR IN
ITS OPINION
OF UNITED STATES GOVERNMENT USE OF A STATE'S INDIVISIBLE
STATUES
EMPHASIZING THAT A STATE STATUE LIKE TENN. CODE ANN.
S39-17433 CANNOT BE USED TO ENHANCE A SENTENCE UNDER THE ARMED
CAREER

11

CRIMINAL ACT TITLE 18 USC 5924(e) IF THE STATUES ELEMENTS OF
AN OFFENSE OVERREACHES WHAT THE LAW ALLOWS TO PUNISH. SEE MATHIS
V. UNITED STATES. 136 S.ct. 2243(2016).
MR. EASON CONTINUOUS TO ARGUE THAT HE IS
NOT AN ARMED CAREER
CRIMINAL AND THE ORIGINAL SENTENCE OF 46 MONTHS WAS CORRECTLY
IMPOSED BY THE DISTRICT COURT. AFTER THE COURT RULED AFTER USING
THE CATERGORICAL APPROACH THAT..."EASON'S PRIOR TENNESSEE
CONVICTIONS WAS BASED ON A MERE PURCHASE OF AN INGREDIANT THAT
fCOULD1 HAD BEEN USED TO fPROMOTE1 METHAMPHETAMINE AND FELL
BELOW W^AT CONGRESS.,INTENDED THE ACCA'S MANDATORY MINIMUM MEANING
OF A SERIOUS DRUG QFFENSE QUOTING TAYLOR V. UNITED STATES. 495
U.S. 575 (1990); UNITED STATES V. BASS. 404 U.S.
336. 348 (1971)
UNITED STATES V. CARDIFF. 344 U.S, 174 73 S.ct. 119 97 LED 200
(1952).
TENN. CODE ANN. 539-17-433(a)(1 ) READS;
(a) IT IS AN OFFENSE FOR A PERSON TO PROMOTE METHAMPHETAMINE
MANUFACTURE. A PERSON PROMOTES MANUFACTURE WHO;
:<

(1) SELLS. PURCHASES. ££QUIRES OR DELIVERS ANY CHEMICAL, DRUG,
INGREDIANT OR APPARATUS THAT CAN BE USED TO PRODUCE METHAMPHETAMINE :, KNOWIN<^ > THAT- £T WILL BE USED TO PRODUCE METHAMPHETAMINE
OR WITH RECKLESS DISREGARD OF ITS INTENDED USE.
THE ANALYSIS,OF MR» EASON’S STATE CONVICTIONS UNDER TENN.
CODE,
ANN. 539-17-433(a)(1) CONFIRMS THAT HIS COULD
HAVE BEEN COMMITTED
BY MEANS RATHER THAT ELEMENTS BECAUSE THE STATUE IS INDIVISIBLE.
OVERINCLUSIVE, OVERLYBROAD,AND PUNISHES MORE THAN THE LAW ALLOWS.
AS THE STATUE GOES BEYOND MORE THAN A SINGLE ELEMENT TO COMMIT
THE OFFENSE SEE ERNST V. UNITED STATES. 293 F. SUPP. 3d 1242.
1250. (D. OR 2017); QUOTING MATHIS V.
UNITED STATES. 136 S.ct
2243 (2016). WHEREFORE REMAND IS REOUIRED, AS THE ACCA'S SENTENCE
UNDER THE MANDATORY MINIMUM IS UNCONSTITUTIONALLY IMPOSED.

12

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
&

Date: / fi/QVZMBEA

13

